NO. 20-1254

In the
Supreme Court of the United States
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
PADMA RAO,

Petitioner,
v.
MIDLAND TRUST COMPANY,

Respondent.
__________________________

On Petition for a Writ of Certiorari to the
Illinois Appellate Court, First District
REPLY BRIEF OF PETITIONER

MICHAEL STEIGMANN

COUNSEL OF RECORD

LAW OFFICE OF MICHAEL STEIGMANN
SUPREME COURT BAR #313948
180 N. LASALLE ST., SUITE 3700
CHICAGO, IL 60601
(312) 833-5945
MICHAEL@STEIGMANN.COM
COUNSEL FOR PETITIONER

APRIL 22, 2021
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES........................................ iii
REPLY BRIEF OF PETITIONER ............................... 1
I.

DR. RAO’S ALLEGED LACK OF CONTROL
OVER THE SEPARATE MEDICAL MALPRACTICE
CASE IN THE LAW COURT IS IRRELEVANT TO
HER DUE PROCESS STANDING IN THE PROBATE
COURT TO OPPOSE THE ACTIONS OF THE
ESTATE ADMINISTRATOR IN THAT PROBATE
COURT THAT AFFECT HER PROPERTY RIGHTS .... 2
A. The Probate Court’s Order Did Grant
Dr. Rao Standing in the Probate Court
Decision Now on Appeal to Oppose the
Administrator’s Proposed Settlement
That Was Fully Briefed and Then
Approved in the Probate Court—And
This Is Precisely the Issue on Appeal
Here................................................................. 4
B. Dr. Rao Has a Property Interest in the
Survival Act Claim and Wrongful Death
Claim as Both an Estate Beneficiary
and a Wrongful Death Claimant, and
Thus Has Due Process Rights to Be
Heard to Protect Her Property Interests
Therein ........................................................... 5
C. Dr. Rao Has a Property Interest in
the Survival Act Claim and Wrongful
Death Act Claim That Were Compromised in the Settlement That Was
Approved in the Probate Court Over
Her Opposition, and Is Now the Subject
of This Appeal ............................................ 8

ii
TABLE OF CONTENTS – Continued
Page
II. DR. RAO POSSESSES PROPERTY INTERESTS AS
BOTH AN ESTATE BENEFICIARY FOR THE
SURVIVAL ACT CLAIM WHICH ACCRUES TO
THE ESTATE, AND AS THE PARTY IN INTEREST
IN THE WRONGFUL DEATH ACT ACTION.............. 9
A. Respondent Does Not Dispute That Dr.
Rao Has a Property Interest in the
Wrongful Death Action Under Powell,
the Applicable Holding for Due Process
Considerations Here ...................................... 9
B. The Constitution Requires That Dr. Rao
Have Personal Standing to Protect Her
Personal Property Interests ....................... 10
III. COMPELLING GROUNDS FOR REVIEW ARE
PRESENT HERE BECAUSE ILLINOIS COURTS
ARE REFUSING TO F OLLOW THE C ONSTITU TIONAL DUE PROCESS GUARANTEE ................. 11
CONCLUSION ............................................................. 12

iii
TABLE OF AUTHORITIES
Page
TABLE OF AUTH ORITIES

CASES

Cleveland Board of Education
v. Loudermill, 470 U.S. 532 (1985) ....................... 3
Fuentes v. Shevin ,
407 U.S. 67 (1972) ....................................... 11, 12

In re Estate of Powell,
12 N.E.3d 14 (Ill. 2014) .........................................10

Will v. Northwestern,
378 Ill. App. 3d 280 (Ill. App. Ct. 2007) ...........5, 8
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. XIV, § 1 ..................................passim

1

REPLY BRIEF OF PETITIONER
Unfortunately for Respondent, it is inarguable that
Dr. Rao has a due process right as an estate beneficiary
to challenge the actions of the Estate Administrator
in Probate Court that affect estate property. Dr. Rao
also has an additional due process right to protect her
direct property interest in the wrongful death action
that is for her personal benefit. Both of these property
rights require Dr. Rao to have standing to be heard
as to the Probate Court’s approval of the Estate
Administrator’s proposed settlement that compromised
these property rights of Dr. Rao in the separate medical
malpractice case.
Accordingly, the Illinois Appellate Court violated
Dr. Rao’s constitutional rights by denying her standing
for this probate case on appeal where the Estate
Administrator’s actions are being challenged. The
probate trial court had correctly allowed Dr. Rao
standing to oppose the Estate administrator’s conduct,
and the Illinois Appellate Court’s decision reversing
the trial court’s finding that Dr. Rao has standing
violates her constitutional right to due process to be
heard and to obtain appellate review in this probate
matter.
Respondent’s main argument asserts that Illinois
Courts hold that Dr. Rao has no ability to control a
different case, the Law Division malpractice case.
However, Dr. Rao must have standing under the Due
Process Clause guarantee in the Probate Court (or
any court) that decides her property interests, regardless of whether Illinois Courts hold otherwise in direct
contradiction to the Fourteenth Amendment. While

2
Respondent also insists that this Court must defer to
the Illinois Court’s conclusion that Dr. Rao has no
standing to protect her property rights, it is this Court’s
obligation and purpose to uphold the supremacy of
the U.S. Constitution against any states’ violation of
the Fourteenth Amendment’s mandate—“nor shall
any State deprive any person of life, liberty, or property, without due process of law.”
I.

DR. RAO’S ALLEGED LACK OF CONTROL OVER THE
SEPARATE MEDICAL MALPRACTICE CASE IN THE LAW
COURT IS IRRELEVANT TO HER DUE PROCESS
STANDING IN THE PROBATE COURT TO OPPOSE THE
ACTIONS OF THE ESTATE ADMINISTRATOR IN THAT
PROBATE COURT THAT AFFECT HER PROPERTY
RIGHTS.

Respondent’s main argument is that Dr. Rao
cannot have standing in this probate case due to an
Illinois court precedent denying an estate beneficiary’s
ability to control separate tort actions in the separate
court for these tort actions. As Respondent’s Header
I puts it—“The administrator alone possesses the
sole right of action or control over a wrongful death
and survival act cause of action.” (Opposition Brief
(“Opp.Br.”) at 19, emphasis in original). Respondent’s
argument—entirely in reliance on Illinois law involving
the completely separate tort case—is frivolous for
numerous reasons.
First, this appeal concerns the probate case at issue
and on appeal here, where Dr. Rao is appealing the
probate trial court’s supervision of the administrator’s
conduct in that separate medical malpractice action.
Where the probate case is affecting Dr. Rao’s property
rights both as an Estate beneficiary and as true party

3
in interest in the wrongful death action, Dr. Rao’s
ability to control the other court in the separate malpractice action is simply irrelevant. Or put another
way, Dr. Rao’s purported lack of ability to control the
medical malpractice action cannot possibly terminate
any due process standing she already has to protect
her property rights in this probate matter on appeal.
The second reason Respondent’s argument is baseless is that due process does not examine who has the
right to “control” a process as Respondent asserts, but
whether a party has any property rights at all which
are then entitled to due process protection. Any person
with such property rights has standing to be heard in
the court under due process. The root requirement of
the Due Process Clause is that an individual be given
an opportunity for a hearing before she is deprived of
any significant protected interest. Cleveland Board
of Education v. Loudermill, 470 U.S. 532, 542 (1985).
Such a protected individual is usually not in “control”
of the process under which they may be deprived of
property, but they are still entitled to standing and
the opportunity to be heard to protect that property.
This opportunity to be heard was properly allowed by
the probate trial court here, but was unconstitutionally denied by the Illinois Appellate Court.
Third, Respondent is entirely mistaken in asserting that this Court must defer to Illinois case law as
to what constitutes the necessary due process under
the United States Constitution. Dr. Rao is appealing
to correct the unconstitutional deprivation of due
process by the Illinois Appellate Court in this matter,
and it is this Supreme Court which decides whether
the proper due process guarantee has been followed

4
to protect Dr. Rao’s constitutional due process rights
here—not the Illinois Courts’ “process” precedents.
A. The Probate Court’s Order Did Grant Dr. Rao
Standing in the Probate Court Decision Now on
Appeal to Oppose the Administrator’s Proposed
Settlement That Was Fully Briefed and Then
Approved in the Probate Court—And This Is
Precisely the Issue on Appeal Here.
The Respondent accuses Dr. Rao of somehow
“misleading” this Court by correctly and “only” stating
that the Probate Court’s January 15, 2019 Order
granted Dr. Rao standing in the Probate Court to
challenge Estate Administrator Petitions filed before
the Probate Court. (Opp.Br.22). Yet this is precisely the
issue here on appeal. On appeal is Dr. Rao’s opposition
to the Estate Administrator’s Petition to Approve the
Settlement that was fully briefed in the Probate Court.
The Probate Court approved the Petition over Dr.
Rao’s opposition, but granted Dr. Rao’s motion for
immediate appeal of its decision. It is this Probate
Court Order approving the Settlement Petition that
is being appealed here.
The Respondent argues that Dr. Rao should have
also addressed other Probate Court decisions that are
not on appeal here. The Respondent does not explain
why this is so, and of course these decisions are
completely irrelevant to the issue actually on appeal.
Moreover, even if Respondent was correct that
these other Probate Court decisions are somehow part
of this appeal—and they are not—they have no relevance at all as to the issue of whether Dr. Rao has
due process standing to be heard here to protect her
property rights. If she does, then any contrary trial

5
court decision was just as wrong as the Illinois Appellate Court’s decision and likewise cannot stand.
B. Dr. Rao Has a Property Interest in the Survival
Act Claim and Wrongful Death Claim as
Both an Estate Beneficiary and a Wrongful
Death Claimant, and Thus Has Due Process
Rights to Be Heard to Protect Her Property
Interests Therein.
i. The Illinois Court Precedent Regarding
“Control” Over the Law Division Case
Cannot Terminate Dr. Rao’s Due Process
Rights to Be Heard in the Probate Court
Regarding Her Property Interest.
Respondent first argues that because Dr. Rao
allegedly has no right to any “control over the lawsuit”
in the Law Division court pursuant to the Illinois case of
Will v. Northwestern, she somehow lacks standing to
protect any of her due process rights in the property
at issue in that lawsuit in the Probate Court, or even
to be heard as to the required settlement approval
in that Probate Court. Once again, this argument
is frivolous for numerous reasons.
First, due process does not examine who has the
right to “control” a process as Respondent asserts, but
whether a party has any property rights at all which
are entitled to due process protection. Regardless of
any entities’ right to control a lawsuit involving
multiple parties, such control cannot defeat Dr. Rao’s
standing to be heard when it is her property rights
that are being compromised in the settlement of such
lawsuit, and it is her personal property rights entitled
to the due process guarantee.

6
Second, Respondent is again entirely mistaken
that this Court must defer to the Illinois courts as to
what constitutes necessary due process under the
United States Constitution. It is this Supreme Court
which decides whether the proper due process guarantee has been followed to protect Dr. Rao’s property
rights here—and whether Illinois Courts believe they
can deny such due process is entirely irrelevant to
Dr. Rao’s actual due process rights under the U.S.
Constitution. According to Respondent’s logic, America
would still have segregation and Jim Crow because
this Court must defer to whatever a state wishes to
do to its citizens.
Lastly, it is the Probate Court’s decision approving
the Estate Administrator’s Petition for Settlement that
is the subject of this appeal. Accordingly, the alleged
Illinois Court precedent that Dr. Rao would lack
standing in the Law Court is not relevant to this
appeal and does not affect her standing to protect her
property rights in the Probate Court.
ii. Dr. Rao Is Not Judicially Estopped from
Protecting Her Property Rights in the
Probate Court.
Respondent’s new judicial estoppel argument is
frivolous. First and most obviously, the same party
requirement is completely absent because the Motion
to Strike was filed on behalf of the Estate by Estate
counsel, as the Motion itself states: “The Estate
requests that this Court strike the appearance and
Sanctions Motion filed by Anita Rao.” (Opp.Br.27; Pet.
App.26a). Dr. Rao is thus not judicially estopped by
this prior Estate Motion in which she had no personal
participation in her individual capacity whatsoever.

7
Respondent also presents no evidence in the
record that the element of “successfully maintained the
first position, and receiving some benefit thereby”
applies here. In fact, the Estate’s Motion to Strike the
Sanctions was not granted at all—instead, Anita’s
Sanctions Motion was fully briefed and remains
pending. In addition, an inability to participate directly
in the Law Division Court is not inconsistent with the
ability to participate in the separate Probate Court
about estate matters there. These positions are not
“totally inconsistent” as required—in fact they are
not inconsistent at all.
iii. Dr. Rao as Administrator Objected to
the Settlement Order—She Filed a
Motion to Vacate the Settlement Order,
a Motion That Remained Pending Past
Her Removal as Administrator.
Respondent’s next argument may be its most
bizarre and factually baseless, claiming that Dr. Rao
“while acting as Administrator of the Estate, failed
to file written objections or appeal of the settlement
and distribution orders.” (Heading iii, Opp.Br.27).
Nevertheless, Respondent even admits that Dr. Rao
“as the then-Administrator, did proceed to file the
Motion to Vacate the Settlement and Distribution
Orders.” (Opp.Br.27). Such Motion to Vacate is indeed
a “written objection” under any definition of that term,
and Respondent’s claim otherwise is ridiculous.
Moreover, Dr. Rao could hardly appeal the Motion
to Vacate as Administrator when it remained pending
at the time of her removal. In addition, Dr. Rao’s prior
actions as Estate Administrator in Law Division are
irrelevant to her due process rights to be heard in

8
Probate Court regarding her individual property
interest.1
C. Dr. Rao Has a Property Interest in the
Survival Act Claim and Wrongful Death
Act Claim That Were Compromised in
the Settlement That Was Approved in the
Probate Court Over Her Opposition, and Is
Now the Subject of This Appeal.
Respondent has made two vague arguments in
this section that do not weigh against review here.
Respondent first asserts again that the Illinois Court
in Will v. Northwestern University held that the Estate
Administrator alone “possesses the sole right of control
over a Wrongful Death Act or Survival Act cause of
Action” (Opp.Br.30). As Dr. Rao has already shown in
Part B above, whatever an Illinois Court believes
about “controlling” a lawsuit is utterly irrelevant to
Dr. Rao’s due process right to have standing to protect her property rights, and to at least be heard in
court to protect her individual property interests.
Respondent next notes that although the Probate
Court specifically granted Dr. Rao standing as heir
to oppose the Petition to Settle that is the subject of
this appeal, Respondent states that the Probate trial
court did not grant Dr. Rao “any greater standing
than that afforded to any heir or legatee” (Opp.Br.30).
But this is precisely the standing that was denied
by the Illinois Appellate Court—the question here is
whether Dr. Rao as heir does have any standing at
all to protect her rights as heir by opposing the Petition
1 Further, Respondent’s claim that there had been a “multiday” mediation is also erroneous.

9
to Settle that compromises those property rights. As
to Respondent’s reliance on other trial court decisions
not at issue on appeal here, Part A above further shows
that Respondent’s argument is both inaccurate and
utterly irrelevant to the actual due process analysis.
II. DR. RAO POSSESSES PROPERTY INTERESTS AS BOTH
AN ESTATE BENEFICIARY FOR THE SURVIVAL ACT
CLAIM WHICH ACCRUES TO THE ESTATE, AND AS
THE PARTY IN INTEREST IN THE WRONGFUL DEATH
ACT ACTION.
Despite the heading in Respondent’s brief Part
II that Dr. Rao purportedly does not have a property
interest here (Opp.Br.31), Respondent does not even
attempt to refute Dr. Rao’s Petition claim that she
has a property interest in the Survival Act Claim as
an Estate beneficiary. Accordingly, Respondent has
already conceded this entire issue of Dr. Rao’s property
interest here—as an admitted heir, Dr. Rao has a
property interest in the Estate and Estate claims
such as the Survival Act Claim. Respondent pretending
otherwise in its heading is frivolous and intentionally
misleading.
Respondent’s additional points in this section are
also meritless.
A. Respondent Does Not Dispute That Dr. Rao
Has a Property Interest in the Wrongful
Death Action Under Powell, the Applicable
Holding for Due Process Considerations Here.
This Court has repeatedly held that a party is
entitled to due process to be heard to protect their
property interest. Regarding the property interest in
a wrongful death action, the Illinois Supreme Court

10
holds that the “decedent’s spouse and next of kin are
the true parties in interest in a wrongful death action”
and that the action is for the “exclusive benefit of the
surviving spouse and next of kin.” In re Estate of
Powell, 12 N.E.3d 14, 20-21 (Ill. 2014). Thus, Respondent does not and cannot argue that Dr. Rao lacks any
property interest in the wrongful death action under
this Powell holding, and accordingly Dr. Rao must
have standing to be heard and protect her property
interest in the wrongful death action under the Due
Process Clause.
While Respondent argues that Powell itself did
not hold that Dr. Rao has standing to protect her
property rights, this is irrelevant to the due process
analysis. Once Dr. Rao has a property right at issue,
she has the constitutional due process guarantee to
be heard and protect such property rights. It is this
property right in need of protection which grants her
due process standing here, not any standing opinion
of an Illinois court.
B. The Constitution Requires That Dr. Rao Have
Personal Standing to Protect Her Personal
Property Interests.
Without citation to any due process precedents,
Respondent blithely asserts that Dr. Rao is not entitled
to be heard under due process to protect her property
interests because she is purportedly protected by the
Estate Administrator’s duty to act in the best interests
of the Estate. (Opp.Br.32). But even if Respondent
believes there has never been a negligent or corrupt
or incompetent administrator in history, or one who
was anything less than perfect in performing such
duty, this Court’s precedents still entitle Dr. Rao to

11
personally be heard to protect her personal property
rights. Fuentes v. Shevin , 407 U.S. 67, 80 (1972).
Moreover, under Powell the Wrongful Death Act claim
solely belongs to Dr. Rao instead of the Estate, and
thus there is no entity protecting Dr. Rao’s property
rights for that claim whatsoever if Dr. Rao is denied
standing to assert her due process rights over this
property.
III. COMPELLING GROUNDS FOR REVIEW ARE PRESENT
HERE BECAUSE ILLINOIS COURTS ARE REFUSING
TO F OLLOW THE CONSTITUTIONAL DUE PROCESS
GUARANTEE.
Respondent’s final two arguments are that review
is not appropriate because: (1) “Illinois law is so definitely clear” (Opp.Br.34); and (2) no matter of federal
law has been raised “Other than Petitioner claiming
that the Due Process Clause of the Fourteenth Amendment has been violated” (Opp.Br.35). As to the first
assertion, if Illinois law is clearly depriving Dr. Rao
and other similarly situated individuals of any due
process right to be heard to protect their property
interests, this is a very strong reason for review by
this Court under the Supremacy Clause to enforce
the Constitution and stop these continued constitutional violations by Illinois as soon as possible.
As to Respondent’s malign dismissal that the Due
Process Clause is simply not worthy of this Court’s
attention, this Court’s precedents repeatedly emphasize
the importance of due process: “Parties whose rights
are to be affected are entitled to be heard.” Fuentes,
407 U.S. at 80. This is a basic aspect of the duty of
government to follow a fair process of decision-making
when it acts to deprive a person of his possessions.

12

Id. “For when a person has an opportunity to speak
up in his own defense, and when the State must listen
to what he has to say, substantively unfair and simply
mistaken deprivations of property interests can be
prevented.” Id. at 81. The Court must act here, as it
has in Fuentes and all the cases cited in the opening
brief, to protect Americans’ right to due process in
their state courts.

CONCLUSION
Respondent’s main argument is that this Court
should defer to the Illinois Courts’ decision to deprive
Dr. Rao of any standing to be heard regarding her
property rights in the Probate Court. The United States
Constitution demands otherwise and mandates due
process for all its citizens. Therefore, review should
be granted.
Respectfully submitted,
MICHAEL STEIGMANN

COUNSEL OF RECORD

LAW OFFICE OF MICHAEL STEIGMANN

SUPREME COURT BAR #313948
180 N. LASALLE ST., SUITE 3700
CHICAGO, IL 60601
(312) 833-5945
MICHAEL@STEIGMANN.COM

COUNSEL FOR PETITIONER
APRIL 22, 2021

